                                              <
                                                                                    1
                                                                                   li
                                                                                   //I
                                                                                   II


                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




          Accordingly, no further action is warranted and this matter is closed.




NSF OIG Fonn 2 (1 1102)                                                            //
                                                                                   I!
                                                                                   /j
